TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Modernization Program Uncertainties Are
                Affecting the Account Management Services
                            Project Development



                                           June 9, 2009

                              Reference Number: 2009-20-071




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 9, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Modernization Program Uncertainties Are
                                 Affecting the Account Management Services Project Development
                                 (Audit # 200820010)

 This report presents the results of our review of the Account Management Services (AMS)
 project release1 development. The overall objectives of this review were to determine whether
 the AMS project management team is following established systems development processes to
 ensure effective and efficient delivery of AMS Releases 1.3 and 2.1 and to assess the adequacy
 of internal controls to ensure appropriate expenditure and reporting of funds used to support
 AMS system release activities. This review was part of our Fiscal Year 2009 Annual Audit Plan
 under the major management challenge of Modernization of the Internal Revenue Service (IRS).

 Impact on the Taxpayer
 The AMS system will provide IRS employees with immediate access to taxpayer account data
 and the ability to perform instantaneous transaction processing and daily account settlement.
 Although the AMS project management team generally followed established systems
 development processes to deliver Releases 1.3 and 2.1, IRS management needs to decide what
 future project development plans will be followed and improve project funding controls.
 Addressing these issues will allow the AMS system to help meet the ongoing need to modernize
 tax administration processes, applications, and technologies, and to enhance the level of service
 provided to the nation’s taxpayers.




 1
     See Appendix V for a glossary of terms.
                             Modernization Program Uncertainties Are Affecting
                          the Account Management Services Project Development




Synopsis
Our assessment of project management controls and activities in the development and
deployment of AMS Releases 1.3 and 2.1 found that adequate documentation was developed and
maintained to meet Enterprise Life Cycle2 requirements for deliverables and work products, as
well as project work breakdown structure schedules,
task orders and modifications, and meeting minutes.
                                                                    The AMS project management
In Calendar Year 2007, the IRS conducted an                  team completed deployment of
extensive technical analysis on the future of the AMS                 Release 1.3 on
                                                            February 20, 2009. Release 2.1 is
system, the Customer Account Data Engine, and the
                                                                on track for its scheduled
Integrated Data Retrieval System. This analysis                 August 5, 2009, delivery.
subsequently resulted in a decision to modernize and
reuse the Integrated Data Retrieval System,
eliminating the need to develop many of the capabilities originally planned for the AMS system.
In August 2008, the IRS Commissioner established a Program Integration Office to manage the
migration of taxpayer account processing to a modernized environment. This Office concluded
that the original capabilities planned for the AMS system were not consistent with revised
modernization goals. A recommendation to stop all activities on AMS Release 2.2 and future
releases was approved by the Customer Service Executive Steering Committee on
September 22, 2008.
Because of these tentative plans about its future, IRS executives need to make several strategic
decisions that will affect the future of the AMS system. The longer these decisions are delayed,
the greater the risk of costly rework.
Although contracted work for the AMS system was performance-based, timely finalized, and
monitored, the contract was not developed in a manner to appropriately control spending across
releases. Because of the form of the contract and the absence of key internal controls over
funding, the AMS project management team experienced difficulty in managing project funding
for Releases 1.3, 2.1, 2.2, and 3.1. Expenses for infrastructure were obligated from Release 1.3
to implement requirements for projected IRS users through Release 3.1. This resulted in a
shortfall of available funding to complete Release 1.3 application development activities.
The AMS project management team decided to spend money across releases in order to proceed
with project development. They initially approved spreading infrastructure costs across multiple
releases because these costs do in fact benefit multiple releases. However, because some
development work was associated with project infrastructure, budget managers began to spend
development funds in the same way. Ultimately, development not associated with infrastructure


2
    See Appendix IV for an overview of the Enterprise Life Cycle.
                                                                                                   2
                        Modernization Program Uncertainties Are Affecting
                     the Account Management Services Project Development



was paid for by using funds from future releases to support current releases (i.e., cross-release
spending). The AMS project management team agreed that formally reallocating the money
through the existing governance process would have been the proper method for handling the
funding shortfalls.

Recommendations
The Chief Technology Officer should ensure that AMS project management activities follow the
appropriate governance process to redirect remaining AMS funding to complete Releases 1.3 and
2.1. To address the need to improve controls over project funding, the Chief Technology Officer
should consider directing project management teams and contracting officers to propose
modernization task orders with the ability to readily account for system development activity
funding on a release basis and, for major modernization development projects, on a milestone
basis. Actions should be taken to reinforce existing governance procedures to Modernization
and Information Technology Services organization executives and managers about
release-specific project funding. In addition, the Chief Technology Officer should provide
training and desk procedures on the proper use of release-specific (and, where applicable,
milestone-specific) project funding. The procedures should provide detailed steps for preparing,
reviewing, and approving requisitions.

Response
The IRS agreed with our recommendations. The Account Management Services project request
to realign funds to complete Releases 1.3 and 2.1 followed the governance process, received
approval from governance committees, and notified external stakeholders. The Associate Chief
Information Officer for Management’s Financial Management Services Business Systems
Modernization team will meet with the Procurement organization and Business Systems
Modernization project managers to assess current practices and determine what changes are
necessary to implement our contracting recommendations. The Modernization and Information
Technology Services organization will reinforce existing governance procedures to ensure that
this topic is included as an agenda item for discussion at appropriate Executive Steering
Committee meetings. Further, formal desk procedures, including the appropriate use of
release-specific and milestone-specific project funding, are under development. Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Margaret E.
Begg, Acting Assistant Inspector General for Audit (Security and Information Technology
Services), at (202) 622-8510.



                                                                                                    3
                               Modernization Program Uncertainties Are Affecting
                            the Account Management Services Project Development




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Account Management Services Project Management Team
          Generally Followed Established Systems Development Processes..............Page 4
          Work Has Been Suspended on Future Account Management Services
          Project Releases ............................................................................................Page 5
                    Recommendation 1:........................................................Page 6

          Adequate Project Funding Controls Were Not Implemented .......................Page 6
                    Recommendations 2 and 3: ..............................................Page 12

                    Recommendation 4:........................................................Page 13


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 14
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Enterprise Life Cycle Overview ..........................................Page 18
          Appendix V – Glossary of Terms .................................................................Page 20
          Appendix VI – Management’s Response to the Draft Report ......................Page 23
         Modernization Program Uncertainties Are Affecting
      the Account Management Services Project Development




                  Abbreviations

AMS         Account Management Services
IRS         Internal Revenue Service
                             Modernization Program Uncertainties Are Affecting
                          the Account Management Services Project Development




                                              Background

The Account Management Services (AMS) system will
provide Internal Revenue Service (IRS) employees in
multiple business operating divisions with immediate             The IRS chartered the AMS
access to taxpayer account data. The AMS system also            project management team to
has the ability to perform instantaneous transaction              meet the ongoing need to
                                                               modernize tax administration
processing and daily account settlement, which are              processes, applications, and
critical to improving customer service. In addition, the       technologies, and to enhance
AMS system will provide IRS employees with the                the level of service provided to
ability to access and update taxpayer accounts regardless          the nation’s taxpayers.
of whether the data reside in the current Master File1
processing environment or in the modernized Customer
Account Data Engine.
Work was initiated in May 2006 to design and develop the AMS system. The AMS system plans
include capabilities to 1) provide IRS employees with data presentation services to display and
validate changes to update taxpayer accounts, 2) store and manage actions and activities by IRS
employees, such as work assignments, transfers, case closures, and generation of letters to the
taxpayer, and 3) implement applications that monitor taxpayer accounts for followup activity or
deferred actions.
The first release of the AMS system delivered the capability to update authoritative taxpayer
account data on a daily basis to more than 33,000 customer service representatives.
       y AMS Release 1.1 updated taxpayer accounts to the Customer Account Data Engine using
         the Enterprise Architecture Integration Broker.
       y AMS Release 1.2 built the framework necessary to view and monitor taxpayer accounts,
         capture activity history, and automate the managing and reporting of work to an online
         process.
       y AMS Release 1.3 merges existing IRS Desktop Integration and Correspondence Imaging
         System applications into the AMS system.
AMS Release 2.1 plans include extending the capabilities established by Release 1.3 and
providing new enterprise-wide services that were not previously available as part of the existing
Desktop Integration and Correspondence Imaging System applications. With this release, the



1
    See Appendix V for a glossary of terms.
                                                                                            Page 1
                          Modernization Program Uncertainties Are Affecting
                       the Account Management Services Project Development



AMS system will improve technology and business processes to address taxpayer needs more
quickly, efficiently, and accurately. Specifically, Release 2.1 will:
   y Enable IRS employees to view and access taxpayer account and image data directly from
     either the current processing environment or modernized systems using a single,
     integrated environment called the Virtual Case Folder.
   y     Provide the ability for online name changes to either the current processing environment
         or modernized accounts.
   y     Implement improvements for electronic routing of forms and access to additional current
         processing environment systems.
In Fiscal Years 2005, 2006, and 2008, the AMS Releases 1.1, 1.2, 1.3, and 2.1 obtained funding
for development activities totaling more than $41 million as shown in Figure 1.
                  Figure 1: Account Management Services Project Funding

        Release Milestone         Fiscal Year       Fiscal Year       Fiscal Year          Release
                                      2005              2006              2008             Totals
                                  (in millions)     (in millions)     (in millions)     (in millions)
           1.1          2/3           $4.011               -                 -                 -
           1.1          4a            $1.421               -                 -                 -
           1.1          4b               -             $2.007                -             $7.439
           1.2          2/3              -             $3.489                -                 -
           1.2          4a               -             $1.793                -                 -
           1.2          4b               -             $3.463                -             $8.745
           1.3          2/3              -             $2.596                -                 -
           1.3          4a               -             $1.655                -                 -
           1.3          4b               -                 -              $8.509           $12.760
           2.1          2/3              -             $4.949                -                 -
           2.1          4a               -                 -              $3.282               -
           2.1          4b               -                 -              $3.979           $12.210
         Totals                       $5.432           $19.952           $15.770           $41.154
       Source: IRS Business Systems Modernization Expenditure Plans for Fiscal Years 2005, 2006, 2007,
       and 2008.



                                                                                                         Page 2
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



This review was performed at the Modernization and Information Technology Services
organization facilities in New Carrollton, Maryland, during the period August 2008 through
February 2009. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. This review was
included in the Treasury Inspector General for Tax Administration Fiscal Year 2009 Annual
Audit Plan under the major management challenge of Modernization of the IRS. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                         Page 3
                             Modernization Program Uncertainties Are Affecting
                          the Account Management Services Project Development




                                        Results of Review

The Account Management Services Project Management Team
Generally Followed Established Systems Development Processes
The AMS project management team completed deployment of Release 1.3 on February 20, 2009.
Release 2.1 is on track for its scheduled delivery on August 5, 2009. Our assessment of project
management controls and activities in development and deployment of these releases found that
adequate documentation was developed and maintained to meet Enterprise Life Cycle2
requirements for deliverables and work products, as well as project work breakdown structure
schedules, task orders and modifications, and meeting minutes. The AMS project management
team adequately implemented the following management controls for developing Releases 1.3
and 2.1.
Configuration Management: The configuration management plan addresses key items
required by the Enterprise Life Cycle. The project management team performed the required
configuration audits prior to the exit of Release 1.3 Milestone 4b, is following an appropriate
formal change request process, and is using a formal process to track changes.
Risk Management: The AMS project management and risk management plans provide for
comprehensive risk management activities. In addition, the project management team effectively
measured the potential quantitative and qualitative effects of risks.
Requirement Development and Management: The Business Rules and Requirements
Management Office led the requirements development activities and was the first approving
office on the Business Systems Requirements Report, which was approved in a timely manner.
Information Technology Project Control Reviews and Executive Steering Committee meetings
regularly identify AMS system requirement issues and their appropriate resolution.
Requirements were documented in accordance with the Enterprise Life Cycle guidance into the
Business Systems Requirements Report. The Design Specifications Report and Business
Systems Requirements Report both provide bidirectional traceability for requirements.
Bidirectional traceability provides assurance that the requirements expected and approved to be
deployed are the requirements that are actually deployed.




2
    See Appendix IV for an overview of the Enterprise Life Cycle.
                                                                                            Page 4
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



Transition Management: The AMS transition management plan adequately addressed the
topics required by the Enterprise Life Cycle and Transition Management Office Transition
Management Guide. It covers the following areas as required by the Guide and template:
   y   Change requests.
   y   Impact assessments.
   y   User and third-party training.
   y   Staffing and funding.
   y   Operational documentation.
   y   Definitions of post-Milestone 5 roles, responsibilities, and changes.

Work Has Been Suspended on Future Account Management Services
Project Releases
During Calendar Year 2007, the IRS conducted an extensive technical analysis on the future of
the AMS system, the Customer Account Data Engine, and the Integrated Data Retrieval System.
As part of this analysis, the IRS evaluated the long-term modernization goals and objectives.
Under the advice of executives from the IRS business operating divisions and the Modernization
and Information Technology Services organization, the IRS Commissioner subsequently decided
that the IRS would pursue an approach to modernize and reuse the Integrated Data Retrieval
System. This decision eliminated the need to develop many capabilities originally planned for
the AMS system, such as directly updating taxpayer accounts for use by the Customer Account
Data Engine. As part of the Integrated Data Retrieval System modernization and reuse strategy,
the Customer Account Data Engine will link directly to the Integrated Data Retrieval System and
direct access to the AMS system will no longer exist.
In August 2008, the IRS Commissioner established a Program Integration Office to manage the
migration of taxpayer account processing to a modernized environment. The Program
Integration Office subsequently performed a portfolio review that included an assessment of
AMS Releases 2.1 and 2.2. The assessment concluded that the original capabilities planned for
the AMS system were not consistent with Program Integration Office goals for the
modernization of taxpayer accounts. The Program Integration Office recommendation to stop all
activities on AMS Release 2.2 and future releases was approved by the Customer Service
Executive Steering Committee on September 22, 2008.
Because of these tentative plans about its future, IRS executives from the business operating
divisions and the Modernization and Information Technology Services organization need to
make several strategic decisions about the future of the AMS system. The longer it takes to
make these decisions, the greater the risk of costly rework.

                                                                                           Page 5
                        Modernization Program Uncertainties Are Affecting
                     the Account Management Services Project Development



Recommendation
Recommendation 1: The Chief Technology Officer should ensure that the AMS project
development activities follow the appropriate governance process to redirect remaining AMS
funding to complete Releases 1.3 and 2.1.
       Management’s Response: The IRS agreed with this recommendation. The Account
       Management Services project request to realign funds to complete Release 1.3 and 2.1
       followed the governance process. The request received approval from the Customer
       Service Executive Steering Committee on December 5, 2008, and from the
       Modernization and Information Technology Services Enterprise Governance Board on
       January 23, 2009. Notification was made to the Department of the Treasury and the
       Office of Management and Budget.

Adequate Project Funding Controls Were Not Implemented
The task order and related work requests for the AMS system were performance-based, timely
finalized, and monitored. However, the AMS task order was not developed in a manner to
appropriately control spending across the various releases, and key internal controls over AMS
funding were not implemented.
The AMS project management team experienced difficulty in managing project funding for
Releases 1.3, 2.1, 2.2, and 3.1. Expenses for infrastructure were obligated from Release 1.3 to
provide capability to implement requirements for projected IRS users through Release 3.1. This
resulted in a shortfall of available funding to complete Release 1.3 application development
activities.
The Modernization and Information Technology Services organization executives and AMS
project managers identified the need for additional Release 1.3 funding. However, instead of
reallocating and transferring the funding through the existing governance process, they used
funds from future releases for the current release (i.e., cross-release spending) to proceed with
project development.
The AMS project management team decided to spend money across releases in order to proceed
with project development. They initially approved spreading infrastructure costs across multiple
releases because these costs do in fact benefit multiple releases. However, because some
development work was associated with project infrastructure, budget managers began to spend
development funds in the same way. Ultimately, development not associated with infrastructure
was paid for using cross-release spending. When one release was low on funding, they procured
assets and services for that release by charging the expense to other releases. The AMS project
management team agreed that formally reallocating the money through the existing governance
process would have been the proper method for handling the funding shortfalls.


                                                                                             Page 6
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



Project development funds totaling almost $5.4 million were spent across various AMS releases.
A total of 15 cross-release spending transactions were made for development costs between
January 14, 2008, and November 20, 2008. Of the 15 cross-release spending transactions:
   y   Eight transactions totaling almost $3.2 million involved requisitions where the narrative
       descriptions of work to be performed clearly did not match the funding source, referred to
       as the internal order code. Adequate internal controls where the narrative description is
       compared to the internal order code would have identified these transactions as
       inappropriate.
   y   Seven transactions involved requisitions where narrative descriptions and internal order
       codes did not identify that another release was charged with costs.
       o Two transactions totaling approximately $771,724 had narrative descriptions that
         matched the internal order codes. However, the development work performed for
         these transactions supported other releases.
       o Five transactions totaling almost $1.5 million had narrative descriptions that did not
         clearly identify the release supported by the transaction.
       The IRS informed us about the specific releases these seven transactions actually
       supported and confirmed that the transactions involved cross-release spending. An
       adequate internal control would require a review by the project manager to assure that the
       work requisitioned is clearly and completely described in the requisition narrative
       description and that the work supports the appropriate release activity.
A total of approximately $17.4 million was spent across AMS releases, comprised of almost
$5.4 million of development costs discussed previously, and about $12 million of infrastructure
and project management costs. These infrastructure and project management costs did benefit
multiple releases. However, allocation of these funds to multiple releases did not go through the
Modernization and Information Technology Services organization’s governance process for
approval. Figures 2 through 5 present a breakdown of the cross-release spending transactions.




                                                                                           Page 7
        Modernization Program Uncertainties Are Affecting
     the Account Management Services Project Development



  Figure 2: Total AMS Cross-Release Spending From
                    All Releases


                                                      $5,396,484


      $12,026,233




                                      AMS Application Development Cost

                                      AMS Program Management and
                                      Infrastructure Cost

   Source: IRS Integrated Financial System and Requisition Tracking
   System.

 Figure 3: Release 1.3 Obtained $3,033,754 in Project
   Development Funding From 3 Different Releases

         Release 2.1
         $2,464,950
         (81%)
                                                                      Release 2.2
                                                                      $475,000
                                                                      (16%)




                                                                   Release 1.2
                                                                   $93,804
                                                                   (3%)

Source: IRS Integrated Financial System and Requisition Tracking System.




                                                                                    Page 8
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



                Figure 4: Release 2.1 Obtained $2,262,730 in Project
                  Development Funding From 4 Different Releases

                         Release 3.1                            Release 1.2
                         $1,071,954.00                          $120,161.00
                         (48%)                                  (5%)




                                                                         Release 1.3
                                                                         $313,639.00
                                                                         (14%)



                            Release 2.2
                            $756,976.00
                            (33%)

               Source: IRS Integrated Financial System and Requisition Tracking System.

                      Figure 5: Release 2.2 Obtained $100,000 in
                    Project Development Funding From Release 2.1
                                              Release 2.1
                                               $100,000
                                                (100%)




               Source: IRS Integrated Financial System and Requisition Tracking System.

While the cross-release spending occurred with management’s knowledge, several internal
controls that could have prevented it were not in place.

AMS system contract work was not release-specific
As required by Congress and the Government Accountability Office, the Modernization and
Information Technology Services organization reports on modernization project costs and
deployment schedules in the Business Systems Modernization Expenditure Plan. The
Expenditure Plan reports project costs and schedules by system, release, and milestone.
However, the AMS project development task order was not release- or milestone-specific.


                                                                                          Page 9
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



Neither the task order nor 14 of 15 modifications limited contracted work to an individual AMS
project release.
With a contract of this scope, control over spending for each release can be difficult. The
absence of a release-specific contract contributed to cross-release spending. A release-specific
contract may have provided improved controls for employees, including requisition preparers,
approving officials, the financial plan manager, and management, to prevent cross-release
spending.

The existing governance process was not used to                    Funding for modernization
reallocate funds across releases                                       projects is unique
                                                                    compared to funding for
Existing procedures provide for formal reporting and                  the remainder of IRS
reallocation of funds through the governance process. As                   operations.
discussed previously, the Modernization and Information
Technology Services organization and the AMS project
management team chose not to report shortfalls to the Customer Service Executive Steering
Committee and the Modernization and Information Technology Services Enterprise Governance
Committee. Instead, they chose to alleviate funding shortfalls through cross-release spending.

Employees were not properly trained and there were no written procedures for
preparing, reviewing, or approving requisitions
Our review of questionable development requisitions found cross-release spending transactions
containing narrative descriptions and coding that could have identified the transaction as
potentially inappropriate. However, employees and managers working with AMS project
requisitions did not identify the transactions as inappropriate because they were not properly
trained and did not have written operating procedures.
Modernization funding is controlled through the Business Systems Modernization Expenditure
Plan. A proposed modernization project’s budgets and status are presented in the Expenditure
Plan with details at the project release and milestone levels. Before funding is made available,
the Expenditure Plan must be reviewed by the Government Accountability Office and approved
by Congress. To enable proper reporting, all expenditures must be accounted for at the project
release and milestone levels. In addition, modernization funding is made available on a schedule
that does not mirror the IRS fiscal year.
Many of the employees or managers involved in the requisition development and approval
process had prior training or experience with IRS budgeting, funding, and requisitions.
However, no formal training is available for working with Business Systems Modernization
requisitions, expenditures, and accounting.
None of the employees we interviewed that were responsible for preparing and approving AMS
project requisitions had any written procedures on how to properly 1) work with Business

                                                                                          Page 10
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



Systems Modernization accounting codes and expenditures or 2) prepare, review, and approve
Business Systems Modernization requisitions. In addition, they were not instructed to compare
the requisition coding to the narratives to determine the accuracy of expenditures.
The Chief Financial Officer developed a detailed list of release-specific accounting codes and
updates it quarterly. The list is available to IRS employees on the Chief Financial Officer’s web
site for reference. However, other than the AMS project’s Budget Manager, project employees,
and managers working with AMS project requisitions were unaware that these codes were
available for reference.
Most of the employees and managers interviewed were unfamiliar with release-specific
accounting codes. Some did not know that project expenses were tracked down to the release
level. Most were unaware of rules and procedures regarding cross-release spending and how to
prepare, review, or approve a transaction in a way that would prevent such spending. Adequate
training and formal procedures for preparing, reviewing, or approving requisitions would have
helped employees identify and possibly prevent most of the AMS project cross-release spending.

Management Actions:
As a result of the identification of the cross-release spending, Modernization and Information
Technology Services organization management took the following steps to properly execute
budget allocation and funding actions that required Customer Service Executive Steering
Committee approval:
   y Allocated architecture costs across all available releases.
   y Allocated infrastructure expenses benefiting multiple releases.
   y Identified required realignment actions to continue funding the development of
     Releases 1.3 and 2.1 in excess of original planned amounts.
To implement the budget allocation and change actions, the Modernization and Information
Technology Services organization:
   y   Obtained Customer Service Executive Steering Committee concurrence with architecture
       and infrastructure funding approaches.
   y   Obtained Customer Service Executive Steering Committee approval of AMS project
       budget realignments.
   y   Used incremental funding to begin procurement actions to avoid a work stoppage.
   y   Temporarily used the Business Systems Modernization management reserve account to
       fund the AMS project realignment change request.
   y   Obtained Modernization and Information Technology Services organization Enterprise
       Governance Committee approval and provided notification to external stakeholders.

                                                                                          Page 11
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



   y   Submitted change requests for the Business Systems Modernization Expenditure Plan.
   y   Approved the Corrective Action Plan for the Exhibit 300 Capital Asset Plan and Business
       Case.
In addition, Modernization and Information Technology Services organization management
informed us that they had instituted a control to prevent inappropriate funding from releases and
milestones that have not been initiated. The control denies access to release and milestone funds
through the Integrated Financial System until the project starts work related to those particular
releases or milestones.

Recommendations
The Chief Technology Officer should:
Recommendation 2: Direct project management teams and contracting officers to propose
modernization task orders with the ability to readily account for system development activity
funding on a release basis and, for major modernization development projects, on a milestone
basis. Designating contract activities for specific release and milestone capital development
activities will provide clear funding and reporting traceability and more accessible assessments
of contract funding progress.
       Management’s Response: The IRS agreed with this recommendation. The
       Associate Chief Information Officer for Management’s Financial Management Services
       Business Systems Modernization team will meet with:
       y    The Procurement organization to discuss how the recommendation can be
            incorporated with Procurement guidelines.
       y    Business Systems Modernization project managers to assess current practices and
            determine what changes are necessary to ensure implementation of our
            recommendations, amended if necessary by Procurement’s input.
       Based on the results of these discussions, the Financial Management Services Business
       Systems Modernization team will issue budgetary guidelines. IRS management does not
       believe there is a governance impact to Recommendation 2.
Recommendation 3: Reinforce existing governance procedures to Modernization and
Information Technology Services organization executives and managers about release-specific
project funding, the need to gain approval of funding reallocations, and requirements to
communicate these changes to stakeholders.
       Management’s Response: The IRS agreed with this recommendation. The
       Associate Chief Information Officer for Management’s Financial Management Services
       Business Systems Modernization team will review current policies/procedures regarding

                                                                                          Page 12
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



       Business Systems Modernization release-specific project funding, parameters around
       funding reallocations, and external stakeholder notifications to ensure they reflect the
       latest guidance. The team will then reissue existing policies/procedures to information
       technology executives and managers. In addition, the team will partner with the
       Enterprise Services’ Program Governance Office to reinforce existing governance
       procedures and to ensure that this topic is included as an agenda item for discussion at
       appropriate Executive Steering Committee meetings.
Recommendation 4: Provide training and desk procedures on the proper use of
release-specific (and, where applicable, milestone-specific) project funding. The procedures
should provide detailed steps for preparing, reviewing, and approving requisitions. The
procedures should include, at a minimum, the following controls:
1) When requisitions are initiated, requisition preparers, financial plan managers, and approvers
   must:
   a) Verify that the narrative describing the work to be performed in the requisition is clear
      and identifies the project release supported.
   b) Compare the internal order code to the narrative to ensure that the correct release is being
      charged for the expense.
2) Before requisitions are executed, the project manager must verify that the actual work
   requisitioned supports the release to be charged for the cost.
       Management’s Response: The IRS agreed with this recommendation. The
       suggested controls have been discussed with Applications Development organization
       requisition preparers, reviewers, and approvers and are now in place. Formal desk
       procedures, including the appropriate use of release-specific and milestone-specific
       project funding, are under development.




                                                                                          Page 13
                             Modernization Program Uncertainties Are Affecting
                          the Account Management Services Project Development



                                                                                   Appendix I

           Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether the AMS project management
team is following established systems development processes to ensure effective and efficient
delivery of AMS Releases1 1.3 and 2.1 and to assess the adequacy of internal controls to ensure
appropriate expenditure and reporting of funds used to support AMS project release activities.
This review was part of our Fiscal Year 2009 Annual Audit Plan under the major management
challenge of Modernization of the IRS.
To accomplish our objectives, we identified the internal control guidance for the AMS system’s
development. This guidance includes the Enterprise Life Cycle2 and the Internal Revenue
Manual. We assessed the adequacy of AMS project development activities in relation to the
guidance provided by these internal control systems. We also assessed the adequacy of AMS
project development and program plans by reviewing Business Systems Modernization program
and project documentation and data provided by the IRS, the Business Systems Modernization
Expenditure Plans, and the Exhibit 300, Capital Asset Plan and Business Case, required by the
Office of Management and Budget. We supported this work by interviewing Applications
Development organization and Enterprise Services organization personnel. Specifically, we:
I.         Determined whether the AMS project management team followed established systems
           development processes to ensure the timely delivery of AMS Release 1.3 with all planned
           capabilities.
           A. Obtained the AMS project configuration management plan and interviewed AMS
              project management to assess project configuration management activities.
           B. Obtained relevant Item Tracking Reporting and Control System reports to determine
              whether AMS project risk management processes were sufficient.
           C. Interviewed AMS project management and obtained relevant requirements
              management documentation to assess project requirements development and
              management efforts.
           D. Determined the adequacy of contract management for Release 1.3 by reviewing the
              relevant task orders and work requests.
           E. Determined the adequacy of transition management activities to assess IRS readiness
              to accept Release 1.3.

1
    See Appendix V for a glossary of terms.
2
    See Appendix IV for an overview of the Enterprise Life Cycle.
                                                                                          Page 14
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



       F. Determined the adequacy of the Release 1.3 Pilot Plans.
II.    Determined the status of the AMS project management team members’ and Wage and
       Investment Division managers’ efforts to deliver new capabilities with AMS Release 2.1
       in a timely manner. We accomplished this through interviews and by reviewing
       electronic AMS project documentation.
       A. Determined the adequacy of efforts to deliver Virtual Case Folder capabilities.
       B. Reviewed efforts to move the AMS system to the Employee User Portal and the
          decision to suspend the New Portal Implementation Project.
       C. Determined the adequacy of the AMS project management team’s efforts to deliver
          the online capability to update taxpayer names.
       D. Assessed the status of the design and development work on the AMS system
          enhancements scheduled for delivery with Release 2.1.
       E. Assessed the adequacy of Release 2.1 project management controls.
          1. Assessed the adequacy of controls concerning management of project resources
             such as personnel, funding, facilities and tools, and stakeholder coordination and
             involvement.
          2. Assessed the adequacy of controls to manage project requirements.
          3. Assessed the adequacy of controls to manage identified project risks and issues.
III.   Assessed the adequacy of internal controls that ensure appropriate expenditure and
       reporting of funds used to support AMS project release activities.
       A. Reviewed criteria and assessed the adequacy of controls for the initiation, approval,
          expenditure, and reporting of modernization project costs. For this subobjective, we
          analyzed financial data provided by the IRS. We did not independently test the
          validity of these data.
       B. Reviewed criteria and assessed the adequacy of controls for transferring funds
          between releases within a modernization project.




                                                                                           Page 15
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Charlene L. Elliston, Senior Auditor
Bruce Polidori, Senior Auditor
Glen J. Rhoades, Senior Auditor




                                                                                       Page 16
                     Modernization Program Uncertainties Are Affecting
                  the Account Management Services Project Development



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CIO
Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Procurement OS:A:P
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Director, Test, Assurance, and Documentation OS:CIO:AD:TAD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Acting Director, Procurement OS:A:P
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 17
                       Modernization Program Uncertainties Are Affecting
                    the Account Management Services Project Development



                                                                                 Appendix IV

                    Enterprise Life Cycle Overview

The Enterprise Life Cycle is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
   •   Development of and conformance to an enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the phases and milestones within the Enterprise Life Cycle. A
phase is a broad segment of work encompassing activities of similar scope, nature, and detail and
providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting and
ends with an executive management decision point (milestone) at which IRS executives make
“go/no-go” decisions for continuation of a project. Project funding decisions are often associated
with milestones.




                                                                                          Page 18
                           Modernization Program Uncertainties Are Affecting
                        the Account Management Services Project Development



                   Figure 1: Enterprise Life Cycle Phases and Milestones

              Phase                             General Nature of Work                     Milestone
 Vision and                         High-level direction setting. This is the only
 Strategy/Enterprise                phase for enterprise planning projects.                    0
 Architecture Phase
 Project Initiation Phase           Startup of development projects.                           1
 Domain Architecture Phase          Specification of the operating concept,
                                                                                               2
                                    requirements, and structure of the solution.
 Preliminary Design Phase           Preliminary design of all solution components.             3
 Detailed Design Phase              Detailed design of solution components.                   4A
 System Development Phase           Coding, integration, testing, and certification of
                                                                                              4B
                                    solutions.
 System Deployment Phase            Expanding availability of the solution to all target
                                    users. This is usually the last phase for                  5
                                    development projects.
 Operations and Maintenance         Ongoing management of operational systems.              System
 Phase                                                                                     Retirement
Source: The Enterprise Life Cycle Guide.




                                                                                               Page 19
                          Modernization Program Uncertainties Are Affecting
                       the Account Management Services Project Development



                                                                                 Appendix V

                               Glossary of Terms

            Term                                           Definition
Business Systems               A complex effort that began in Calendar Year 1999 to modernize
Modernization                  IRS technology and related business processes.
Capital Asset Plan and         Also known as Exhibit 300, it is used as a one-stop document for a
Business Case                  myriad of information technology management issues such as
                               business cases for investments, agency modernization efforts, and
                               overall project management. The Office of Management and
                               Budget requires each agency to submit an Exhibit 300 twice each
                               year for each major information technology investment.
Correspondence Imaging         Captures and stores images of correspondence from taxpayers
System                         including letters, returned notices, and standard forms.
Customer Account Data          Consists of databases and related applications that will replace the
Engine                         IRS official repository of taxpayer information (the Master File)
                               and provide the foundation for managing taxpayer accounts to
                               achieve the IRS modernization vision.
Customer Service Executive     Has the responsibility for ensuring the successful implementation
Steering Committee             and integration of modernization projects and related program
                               activities within its portfolio by overseeing investments, including
                               validating major investment business requirements and ensuring
                               that enabling technologies are defined, developed, and
                               implemented.
Desktop Integration            Provides integrated access to multiple systems using only
                               1 computer terminal and supports more than 30,000 end-users.
Employee User Portal           A web-hosting infrastructure that supports an Intranet portal that
                               allows IRS employees to access business applications and data.
Enterprise Architecture        A commercial off-the-shelf solution that will be used to enable the
Integration Broker             communication and data transformations between components of
                               the AMS system, the current processing environment, and the
                               Customer Account Data Engine.



                                                                                          Page 20
                           Modernization Program Uncertainties Are Affecting
                        the Account Management Services Project Development




              Term                                           Definition
Enterprise Life Cycle           A structured business systems development method that requires
                                the preparation of specific work products during different phases
                                of the development process.
Governance                      An IRS designed enterprise governance model that assigns all
                                information technology projects to an appropriate executive
                                oversight body.
Infrastructure                  The fundamental structure of a system or organization. The basic,
                                fundamental architecture of any system (electronic, mechanical,
                                social, political, etc.) that determines how it functions and how
                                flexible it is to meet future requirements.
Integrated Data Retrieval       An IRS mission-critical system consisting of databases and
System                          programs supporting IRS employees working active tax cases. It
                                manages data retrieved from the Master File allowing IRS
                                employees to take specific actions on taxpayer account issues,
                                track status, and post updates back to the Master File.
Integrated Financial System     The IRS’ administrative financial accounting system.
Item Tracking Reporting and     An information system used to track and report on issues, risks,
Control System                  and action items in the modernization effort.
Master File                     The IRS database that stores various types of taxpayer account
                                information. This database includes individual, business, and
                                employee plans and exempt organizations data.
Milestone                       Milestones provide for “go/no-go” decision points in a project and
                                are sometimes associated with funding approval to proceed.
Modernization and               The highest level recommending and decision-making body to
Information Technology          oversee and enhance enterprise management of information
Services Enterprise             systems and technology. It ensures strategic modernization and
Governance Committee            information technology program investments, goals, and activities
                                are aligned with and support 1) the business needs across the
                                enterprise and 2) the modernized vision of the IRS.
New Portal Implementation       A project to establish a portal system to provide better access to
Project                         information, services, and applications for all internal and external
                                IRS user communities.




                                                                                           Page 21
                         Modernization Program Uncertainties Are Affecting
                      the Account Management Services Project Development




             Term                                         Definition
Online Name Changes           Allows IRS employees to make online updates to taxpayer names
                              through a common interface to update the Customer Account Data
                              Engine.
Release                       A specific edition of software.
Requirement                   A formalization of a need and the statement of a capability or
                              condition that a system, subsystem, or system component must
                              have or meet to satisfy a contract, standard, or specification.
Requisition Tracking System   A web-based application that allows IRS personnel to prepare,
                              approve, fund, and track requests for the delivery of goods and
                              services.
Task Order                    An order for services planned against an established contract.
Virtual Case Folder           A means for the customer service desktop application to provide a
                              view of taxpayer account and case information to authorized users.
Work Breakdown Structure      A deliverable-oriented grouping of project elements that organizes
                              and defines the total scope of a project. A project schedule used to
                              manage the tasks, task relationships, and resources needed to meet
                              project goals.




                                                                                        Page 22
         Modernization Program Uncertainties Are Affecting
      the Account Management Services Project Development



                                                  Appendix VI

Management’s Response to the Draft Report




                                                        Page 23
   Modernization Program Uncertainties Are Affecting
the Account Management Services Project Development




                                                  Page 24
   Modernization Program Uncertainties Are Affecting
the Account Management Services Project Development




                                                  Page 25
   Modernization Program Uncertainties Are Affecting
the Account Management Services Project Development




                                                  Page 26
